WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Jung Hyun Cho

20-399
v. Select Portfolio Servicing et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
Q There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

The Wolf Firm, A LAw Corporation

0 I am a member of the bar of the Supreme Court of the United States.

E I am not presentlY a-member of the Bar of this Court. Should a response be requested, the response
will be hied by a Bar member.
Signature()
Date:

October 27, 2020

(Type or print) Name
Firm

Christine E. Howson, Esq.
Mr.

p Ms. 0 Mrs. 0 Miss

The Wolf Firm, A Law Corporation

Address

1851. East 1st Street, Suite 100

city & state Santa Ana,CA,
• Phone

94g-371-8374

Zip
Email

92705

christine.howson@wolffirm.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE. BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Jung Hyun Cho

Kyu Hwang Cho
Eun Sook Cho
Eui HYun Cho

RECEIVED
NOV - if 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

